                     AUDIT REPORT

   Audit of NRC’s Process for Revising Management Directives


                   OIG-14-A-19      September 15, 2014




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                  September 15, 2014



MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S PROCESS FOR REVISING
                            MANAGEMENT DIRECTIVES (OIG-14-A-19)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Process for Revising Management Directives.

The report presents the results of the subject audit. Agency comments provided at the
August 25, 2014, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Eric Rivera, Team Leader, Financial and Administrative Audit Team, at
415-7032.

Attachment: As stated

cc:    M. Galloway, OEDO
       K. Brock, OEDO
       J. Arildsen, OEDO
       C. Jaegers, OEDO
       RidsEdoMailCenter
                                                    Audit of NRC’s Process for Revising Management Directives



EXECUTIVE SUMMARY

          BACKGROUND

                  Federal regulations 1 provide that Federal agencies should strive to
                  (1) convey written instructions and document agency policies and
                  procedures through effective directives management and (2) provide
                  agency personnel with information needed in the right place, at the right
                  time, and in a useful format. At NRC, management directives are issued
                  to (1) promulgate internal policy and procedures of agencywide interest or
                  application that concern a high profile, mission-critical agency function or
                  program and (2) impose substantive requirements on more than one NRC
                  office. Management directives do not propose new policy; instead,
                  directives reflect policy decisions already made and provide the process
                  and guidance for implementing that policy.

                  NRC Management Directive (MD) 1.1, NRC Management Directives
                  System, issued March 18, 2011, describes the process for issuing and
                  revising directives. These directives are to be reviewed and reissued or
                  certified as relevant at least every 5 years (the 5-Year Plan).

                  As of November 5, 2013, NRC maintained 164 MDs in its electronic
                  catalog on NRC’s Internal Web site (see Appendix C). The average age
                  of these 164 MDs is 8.3 years. There are 2.75 full-time equivalents (FTE)
                  for the Office of Administration’s (ADM) management of the MD program.
                  The 2.75 FTE do not include time spent by other agency offices working
                  on the revision of their MDs and supervisory review time.

          OBJECTIVES

                  The audit objectives were to evaluate the adequacy of NRC’s compliance
                  with MD 1.1, particularly in the areas of keeping management directives
                  accurate and up-to-date, and whether opportunities exist to improve the
                  process.




1
    Title 41, Code of Federal Regulations (CFR), Part 102-193, Creation, Maintenance, and Use of Records.

                                                     i
                                                   Audit of NRC’s Process for Revising Management Directives



        RESULTS IN BRIEF

                Although the agency strives for compliance with MD 1.1, NRC generally is
                not in compliance with keeping MDs accurate and up-to-date. Therefore,
                opportunities exist to improve program efficiency and increase compliance
                with MD 1.1 by (A) issuing MDs timely and (B) centralizing authoritative
                guidance.

                MDs Not Issued Timely

                The issuance of NRC’s management directives is not always
                timely. Federal regulations require that agencies make every effort to
                document policies and procedures and provide access to them in a timely
                manner. Additionally, agency policy requires MDs to be revised or
                certified as relevant every 5 years (the 5-Year Plan). The revision of NRC
                MDs is not always timely because there are multiple internal control
                weaknesses. As a result, agency operations may not be optimally
                performed and knowledge management programs may not be effective.

                Authoritative Guidance Is Fragmented


                Federal regulations and agency guidance require NRC to strive to provide
                staff with information needed in the right place, at the right time, and in a
                useful format to conduct agency business. However, NRC’s MD system
                does not always contain up-to-date guidance. This is because the agency
                lacks sufficient internal controls over revisions made to MDs by yellow
                policy announcements. 2 As a result, staff may not have adequate, up-to-
                date guidance to conduct agency operations effectively, and staff could be
                confused or unsure about the correct guidance to follow.

        RECOMMENDATIONS

                This report makes recommendations to improve the efficiency of NRC’s
                process for revising MDs. A list of these recommendations appears on
                pages 18-19 of this report.

2
 For the purposes of this report, the term “yellow policy announcement” refers only to NRC’s Policy
Announcements that inform NRC employees of new or revised policy.

                                                    ii
                                Audit of NRC’s Process for Revising Management Directives




AGENCY COMMENTS

    An exit conference was held with the agency on August 25, 2014. Prior to
    this meeting, after reviewing a discussion draft, agency management
    provided comments that have been incorporated into this report, as
    appropriate. As a result, agency management stated their general
    agreement with the findings and recommendations in this report and opted
    not to provide formal comments for inclusion in this report.




                                iii
                                   Audit of NRC’s Process for Revising Management Directives



ABBREVIATIONS AND ACRONYMS

   ACRS    Advisory Committee on Reactor Safeguards

   ADAMS   Agencywide Documents Access and Management System

   ADM     Office of Administration

   ASLBP   Atomic Safety and Licensing Board Panel

   CFR     Code of Federal Regulations

   CSO     Computer Security Office

   FSME    Office of Federal and State Materials and Environmental
           Management Programs

   FTE     Full-time Equivalent

   MD      Management Directive

   NMSS    Office of Nuclear Material Safety and Safeguards

   NRC     Nuclear Regulatory Commission

   NRR     Office of Nuclear Reactor Regulation

   NSIR    Office of Nuclear Security and Incident Response

   OCA     Office of Congressional Affairs

   OCFO    Office of the Chief Financial Officer

   OCHCO   Office of the Chief Human Capital Officer

   OE      Office of Enforcement

   OEDO    Office of the Executive Director for Operations


                                   iv
                                  Audit of NRC’s Process for Revising Management Directives



OI     Office of Investigations

OIG    Office of the Inspector General

OIP    Office of International Programs

OIS    Office of Information Services

OPA    Office of Public Affairs

RES    Office of Nuclear Regulatory Research

SBCR   Office of Small Business and Civil Rights




                                  v
                                                     Audit of NRC’s Process for Revising Management Directives



TABLE OF CONTENTS

    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYNMS ................................................................ iv


        I.       BACKGROUND .................................................................................... 1

        II.      OBJECTIVES ....................................................................................... 4

        III.     FINDINGS ........................................................................................... 4

                         A. MDs Not Issued Timely.......................................................... 5
                         B. Authoritative Guidance Is Fragmented ................................ 13

        IV.      CONSOLIDATED LIST OF AGENCY RECOMMENDATIONS .......... 18

        V.       AGENCY COMMENTS....................................................................... 20

    APPENDIXES


        A. OBJECTIVES, SCOPE, AND METHODOLODY ..................................... 21

        B. GENERAL CATEGORIES FOR HIERARCHY OF NRC POLICY AND
           GUIDANCE .............................................................................................. 24


        C. CATALOG OF MANAGEMENT DIRECTIVES AS OF
           NOVEMBER 5, 2013 .............................................................................. 25




                                                      vi
                                                  Audit of NRC’s Process for Revising Management Directives



I. BACKGROUND


               Federal Requirements

               Federal regulations 3 provide that Federal agencies should strive to
               (1) convey written instructions and document agency policies and
               procedures through effective directives management and (2) provide
               agency personnel with information needed in the right place, at the right
               time, and in a useful format. In addition, Nuclear Regulatory Commission
               (NRC) regulations 4 provide that “A statement of the NRC’s organization,
               policies, procedures, assignments of responsibility, and delegations of
               authority is in the Nuclear Regulatory Commission Management Directives
               System….” At NRC, management directives (MD) are issued to
               (1) promulgate internal policy and procedures of agencywide interest or
               application that concern a high profile, mission-critical agency function or
               program and (2) impose substantive requirements on more than one NRC
               office. MDs do not propose new policy; instead, directives reflect policy
               decisions already made and provide the process and guidance for
               implementing that policy. NRC prepares and issues MDs as well as
               revisions to these documents to meet the requirement that all Federal
               agencies have an internal Management Directives System.

               NRC Hierarchy of Internal Policy

               The agency maintains general categories for hierarchy of NRC internal
               policy and guidance documents. These documents have been
               categorized into five levels of importance. NRC Commission (Level 1)
               (the highest level) includes commission enforcement policy, commission
               documents, and internal commission procedures. NRC Policy
               Implementation (Level 2) (the second highest level) includes management
               directives, yellow policy announcements, and the Collective Bargaining
               Agreement. 5 The complete detailed hierarchy is shown in Appendix B of
               this report.


3
  Title 41, Code of Federal Regulations (CFR), Part 102-193, Creation, Maintenance, and Use of Records.
4
  10 CFR, Part 1.3, Sources of Additional Information.
5
  To the extent that the agency’s rules, policies, and regulations are in conflict with the terms of the
Collective Bargaining Agreement, the Collective Bargaining Agreement terms govern.

                                                   1
                             Audit of NRC’s Process for Revising Management Directives



NRC’s Review and Publication Process for Management Directives

NRC MD 1.1, NRC Management Directives System, issued
March 18, 2011, describes the process for issuing and revising directives.
These directives are to be reviewed and reissued or certified as relevant
at least every 5 years (the 5-Year Plan). The agency’s current MD
revision process is coordinated through several NRC offices, and usually
involves eight steps (see Figure 1). Appendix C of this report contains the
catalog of NRC’s management directives as of November 5, 2013.

Logistics

As of November 5, 2013, NRC maintained 164 MDs in its electronic
catalog on NRC’s Internal Web site (see Appendix C). The average age
of these 164 MDs was 8.3 years. There are 2.75 full-time equivalents
(FTE) for the Office of Administration’s (ADM) management of the MD
program. Included in the 2.75 FTE is 1 FTE responsible for administering
the NRC announcement program and .25 FTE to update and maintain
both the MD Signature Status Report and 5-Year Plan, located on NRC’s
Internal Web site. The remaining 1.5 FTE include the administrative
staff’s followup to manage each MD through the process, address
assistance requests from authoring offices, and fulfill ADM’s reviewer
responsibilities under MD 1.1. The 2.75 FTE do not include time spent by
other agency offices working on the revision of their MDs and supervisory
review time.




                              2
                                                Audit of NRC’s Process for Revising Management Directives




Abbreviations and acronyms in Figure 1 are explained as follows: Agencywide Documents Access and
Management System (ADAMS), Office of Administration (ADM), Chief Financial Officer (CFO), Executive
Director for Operations (EDO), Office of the General Counsel (OGC), Portable Document Format (PDF),
Office of the Secretary (SECY).

                                                 3
                                       Audit of NRC’s Process for Revising Management Directives



II. OBJECTIVES


          The audit objectives were to evaluate the adequacy of NRC’s compliance
          with MD 1.1, particularly in the areas of keeping management directives
          accurate and up-to-date, and whether opportunities exist to improve the
          process.


III. FINDINGS


          Although the agency strives for compliance with MD 1.1, NRC generally is
          not in compliance with keeping MDs accurate and up-to-date. Therefore,
          opportunities exist to improve program efficiency and increase compliance
          with MD 1.1 by

          A) Issuing MDs timely.
          B) Centralizing authoritative guidance.




                                        4
                                                     Audit of NRC’s Process for Revising Management Directives



           A. MDs Not Issued Timely


                  The issuance of NRC’s management directives is not always timely.
                  Federal regulations require that agencies make every effort to document
                  policies and procedures and provide access to them in a timely manner.
                  Additionally, agency policy requires MDs to be revised or certified as
                  relevant every 5 years (the 5-Year Plan). The revision of NRC MDs is not
                  always timely because there are multiple internal control weaknesses. As
                  a result, agency operations may not be optimally performed and
                  knowledge management programs may not be effective.

                  Timeliness Requirements

                  Federal regulations require agencies to document effective policies and
                  procedures and provide staff access to them in a timely manner. Further,
                  Federal standards provide that information should be communicated to
                  management and staff who need it in a useful format and within a
                  timeframe that enables them to carry out their internal control and other
                  responsibilities.

                  MD 1.1 requires NRC to review, revise, and reissue MDs or certify them
                  as relevant every 5 years in the absence of an extension to the expiration
                  date. MD 1.1 also specifically requires the Office of the Executive Director
                  for Operations to track MD revision compliance through its electronic
                  tracking system.

                  The Office of the Inspector General (OIG) benchmarked NRC’s MD
                  revision process by interviewing staff from four Federal agencies about
                  their directives programs. OIG found that all four agencies revise their
                  MDs in less than a year, which is significantly shorter than NRC.

                  Issuance of NRC’s MDs Is Not Always Timely

                  The agency does not revise or certify most MDs as relevant every 5 years.
                  As of November 5, 2013, 6 NRC had 164 MDs. More than half (91 of 164)
                  of NRC’s MDs had not been revised or certified in 5 or more years (see
                  Figure 2). Agency officials explained that their up-to-date performance
6
    November 5, 2013, was the day after the entrance conference for this audit.

                                                      5
                                                  Audit of NRC’s Process for Revising Management Directives



                calculation was much higher because it did not include 23 Volume 9 (v9)
                MDs, NRC Organization and Functions, or the Volume 10, Office of the
                Chief Human Capital Officer’s 41 MDs (2 are v9 MDs) (see Appendix C).
                The Volume 9 MDs were excluded from the original 5-year plan by the
                Office of the Executive Director for Operations because they were going to
                be addressed in a separate initiative. 7 Office of the Chief Human Capital
                Officer MDs were excluded from the calculation because, after
                implementing the 5-year plan, the office’s MD revision schedule was
                extended from 5 to 8 or more years.




                The timeliness problem is highlighted even more when reviewing the
                number of MDs that are still pending revision and issuance since
                implementation of the 5-year plan. Figure 3 illustrates that as of




7
  A May 19, 2014, memorandum from the Director of the Office of Administration to the Executive Director
for Operations, “U.S. Nuclear Regulatory Commission Plan to Update the Management Directives in
Volume 9,” provided a schedule for Volume 9 MDs to be completed (ADAMS Accession
No.# ML14115A020).

                                                   6
                                                   Audit of NRC’s Process for Revising Management Directives



                November 5, 2013, there were 84 MDs that had not been revised and
                issued. 8 There were also 68 MDs that had been revised and issued;
                however, 68 percent of those were issued after the 5-year plan due date.
                Further, 11 of 12 MDs with due dates after November 2013 were more
                than 5 years past their last revision date.



                                Figure 3: Initial 5-Year Plan
                              Status of 164 MDs as of 11/2013

                                12
                                                                           Revised

                                                        68
                                                                           Not Revised


                                                                           Due Date After 11/2013
                     84




                                                                               Source: OIG Analysis



                Weak Internal Control and Low Management Priority

                NRC MDs are not issued 9 in a timely manner because internal controls for
                revising MDs are ineffective and NRC senior management does not
                consider keeping MDs up-to-date a priority.




8
  The 84 MDs were all past their due dates. They relate indirectly to the 91 MDs in Figure 2 because 7 of
the 91 MDs had either been issued and not revised or recertified within the 5-year guideline required by
MD 1.1, or had a due date after November 2013.
9
  An MDs “issue date” is the date it is signed and becomes effective.

                                                    7
                              Audit of NRC’s Process for Revising Management Directives



Weaknesses in Internal Control

NRC management has the fundamental responsibility to develop and
maintain effective internal control over the MD revision process. OIG
identified several internal control weaknesses in the following areas:

•     Excessive use of extensions.

•     Inadequate extension guidance.

•     Inadequate reporting.

•     Ineffective corporate measure.

Excessive Use of Extensions

The internal controls over extension requests are weak and oversight of
granting extension requests is ineffective. OIG analysis of agency data
revealed an excessive granting of extensions to MD expiration dates
pursuant to extension requests by MD owners. For example, the agency
published 30 MDs between January 1, 2012, and November 5, 2013; 20
of those 30 MDs had at least 1 extension granted, and some had multiple
extensions granted. In spite of the liberal use of extensions, the agency
published only 4 of those 20 MDs on or before the last extension date.
The other 16 were published after the last extension date (see Figure 4).
ADM officials stated that originating offices frequently request extensions
just prior to the expiration date even though ADM’s existing practice
provides MD owners up to a year’s advance notice before the MDs 5-year
anniversary.




                              8
                             Audit of NRC’s Process for Revising Management Directives




Inadequate Extension Guidance

MD 1.1 has inadequate guidance for the extension process. MD 1.1 does
provide that ADM has the administrative authority to grant an initial
1-year extension of the MD expiration date. Additional extensions require
higher-level approval by the Chairman, Commission, Executive Director
for Operations, or Chief Financial Officer, as appropriate. OIG requested
guidelines for the process from ADM and there were none with clear
criteria documenting a basis to approve or deny any request for an
extension. In addition, no agency official interviewed by OIG with the
authority to grant extensions could recall or provide any documentation of
an extension request denial.

MD 1.1 further provides, “If an MD has not been revised or certified prior
to its expiration date, then the MD remains effective after its expiration



                              9
                                                  Audit of NRC’s Process for Revising Management Directives



               date.” This statement presents no incentive for agency staff to revise MDs
               timely.

               Inadequate Reporting

               Internal controls for reporting actionable data to management are also
               weak. ADM routinely collects data and information for NRC’s MD revision
               process and posts it to NRC’s “Policy” Web page as the “Management
               Directives Signature Status Report.” The purpose of the report is to assist
               MD owners by tracking the last action taken on an MD under revision.
               When OIG asked MD owners and other agency staff if they were familiar
               with the ADM report, no one outside ADM (the office responsible for
               creating and maintaining the report) knew of the report’s existence. A
               significant weakness is that ADM does not send this or any regular report
               of actionable information to management for review.

               Ineffective Corporate Measure

               The agency developed a corporate measure 10 to track and monitor
               performance in completing the 5-year plan on a timely basis. NRC
               maintains MD data to track milestones completed in the plan over its
               5-year life. This corporate measure marks office performance “red” for out
               of compliance and “green” for full compliance with the measure. This
               audit revealed that MDs are not issued timely; yet, OIG noted that all
               offices are “green.” This is because when an extension of the expiration
               date is granted, ADM resets the original due date to the extended date
               and still considers the office “green.” Therefore, OIG concludes that the
               corporate measure is weak and ineffective in holding offices accountable
               for their performance.

               A further weakness of this measure involves how the agency compiles
               data. NRC does not know when agency offices actually initiate the
               revision process; subsequently, there is no valid start date to measure
               performance accurately. ADM ends the revision period on the date ADM
               accepts NRC Form 521, “Request for Publication or Elimination of an NRC
               Management Directive,” rather than a more representative date such as
               when the MD is published.
10
  The agencywide corporate measure is “Percent of fiscal year 2014 milestones completed in the office’s
plan to bring management directives up-to-date over a 5-year period.”

                                                  10
                              Audit of NRC’s Process for Revising Management Directives



Low Management Priority

OIG interviewed several program managers and staff assigned
responsibility for the MD revision process and found that, in general, NRC
management does not consider it a priority to keep MDs current and up-
to-date. ADM offers to hold “kickoff” meetings up to a year in advance of
the revision due dates to provide expertise and assistance to make the
process more efficient. However, because it is a low priority, offices often
delegate attendance to inexperienced or new staff or they decline
attendance.

Another indicator of low priority is that compliance with MD 1.1 is not
monitored by senior management. The Office of the Executive Director for
Operations does not track compliance through its tracking system. This is
because ADM submits MD packages to the Office of the Executive
Director for Operations for concurrence and approval without providing a
proposed due date for completion. Information OIG obtained shows that
Office of the Executive Director for Operations review and approval was
required for most MDs. However, on average, MDs remained in that office
for more than 3 months before being approved.

In addition, it appears that MD revision is not given proper priority in the
Chairman’s office. Of the 30 MDs issued in calendar years 2012-2013,
6 required approval by the Chairman. Those six took, on average, more
than 14 months to be approved.

Agency Operations and Knowledge Transfer May Be Affected

Because NRC’s management assigns a low priority to MD revision
activities, staff are not adequately focused on the process. As a result,
agency operations may not be optimally performed because staff may not
have the most current and up-to-date guidance. Moreover, knowledge
transfer may be disrupted because of the lack of current and up-to-date
directives.




                              11
                             Audit of NRC’s Process for Revising Management Directives



Recommendations:

OIG recommends that the Executive Director for Operations

1.    Revise MD 1.1 to

      a.     Elevate authority required for approving extensions.
             Extensions can only be granted by the Chairman, the
             Executive Director for Operations, the Chief Financial
             Officer, or their designees (no lower than Deputy Executive
             Directors for Operations, Assistant for Operations, or Deputy
             Chief Financial Officer), as appropriate.

      b.     Include guidelines for resetting MD initial due dates. Require
             Executive Director for Operations, or designee, approval to
             reset initial due dates. Clearly state the parameters for
             resetting due dates.

      c.     Clearly state the parameters and guidelines for granting
             extensions, and provide that even if an extension is granted,
             the authoring office will receive a “red” on the corporate
             measure scorecard unless they also meet the new MD 1.1
             guidelines (recommendation 1.b) for having the initial due
             date reset.

2.    Require a suspense due date for final concurrence/approval by the
      Executive Director for Operations and Chairman when submitting
      MD concurrence packages to those offices, so that the MD can be
      tracked in Office of the Executive Director for Operations’ tracking
      system.

3.    Require MD author participation in ADM’s MD revision “kickoff”
      meetings.

4.    Develop and implement a performance measure that effectively
      evaluates MD revision timeliness for MDs that begins with the
      kickoff meeting and ends with the issuance date of the MD. In
      addition, provide the reported results quarterly to the Office of the
      Executive Director for Operations and office directors.



                             12
                                                   Audit of NRC’s Process for Revising Management Directives




        B. Authoritative Guidance Is Fragmented

                Federal regulations and agency guidance require NRC to strive to provide
                staff with information needed in the right place, at the right time, and in a
                useful format to conduct agency business. However, NRC’s MD system
                does not always contain up-to-date guidance. This is because the agency
                lacks sufficient internal controls over revisions made to MDs by yellow
                policy announcements. 11 As a result, staff may not have adequate,
                up-to-date guidance to conduct agency operations effectively, and staff
                could be confused or unsure about the correct guidance to follow.

                Guidance Documentation and Availability Requirements

                The Federal Management Regulation (41 CFR § 102-193.25) requires
                Federal agencies to strive to provide staff with information needed in the
                right place, at the right time, and in a useful format. It further requires
                agencies to identify and retain permanent records, dispose of temporary
                records promptly, and organize agency files in a logical order so that
                records can be found rapidly to conduct agency business. This also
                ensures that records are complete and facilitates the identification of
                permanent records.

                Agency guidance in MD 3.16, NRC Announcement Program, requires
                owners to notify ADM when a yellow policy announcement has been
                superseded. This action eliminates confusion as to what represents
                current policy, particularly when revising MDs. Likewise, Article 54.7 of
                the National Treasury Employees Union’s Collective Bargaining
                Agreement requires NRC to establish direct links on the agency’s intranet
                between updated MDs and any related yellow policy announcements.

                Fragmented Guidance

                NRC does not consolidate its authoritative guidance in the MD system;
                rather, the agency documents this guidance in MDs, yellow policy
                announcements, and other interim policies. NRC’s frequent use of yellow
11
  For the purposes of this report, the term “yellow policy announcement” refers only to NRC’s Policy
Announcements that inform NRC employees of new or revised policy.

                                                   13
                                                 Audit of NRC’s Process for Revising Management Directives

               policy announcements is a disincentive to efforts to keep the agency’s
               MDs up-to-date. In lieu of revising an MD on a timely basis, the agency
               routinely issues yellow policy announcements to convey new or revised
               policy. This practice has become generally accepted, resulting in the
               issuance of many yellow policy announcements and making revision of
               MDs a lower priority. For example, MD 10.62 has not been revised since
               2001, and four yellow policy announcements provide general 12 links to this
               MD since then.

               Between January 11, 2010, and November 25, 2013, NRC issued a total
               of 94 yellow policy announcements, revisions to policy, or policy reminder
               announcements. Of the 94, 50 were yellow policy announcements or
               revisions to policy (an average of 12.5 per calendar year) or 53 percent
               (50/94) of all released yellow announcements related to policy for the
               period. Staff expressed frustration about how difficult it is to locate current
               and up-to-date policies to conduct agency business effectively.

               Lack of Agency Action To Comply With Guidance Requirements

               These conditions exist because the agency has not developed

               •   A process to link MDs to yellow policy announcements.

               •   An adequate tracking mechanism for yellow policy announcements.

               •   Controls to assure that staff does not use yellow policy
                   announcements to avoid revising MDs.

               No Process To Link MDs To Yellow Policy Announcements

               While there is a process for NRC yellow policy announcements to provide
               general links to the affected MDs, there is no process to provide specific13
               links in the MD to associated yellow policy announcements. OIG’s
               analysis found that while yellow policy announcements generally specify



12
   General links within yellow policy announcements, when selected, open NRC’s Internal Web page
listing for NRC’s current MDs.
13
   Specific links from MDs to yellow policy announcements would be embedded within the section or
paragraph on the pages of the MD updated and, when selected, would open the yellow policy
announcement.

                                                 14
                             Audit of NRC’s Process for Revising Management Directives

the MDs that contain policies they revise, the majority do not include
references to the specific sections of the MD they revise. Placing a
specific link within the MD reduces the chances that the yellow policy
announcement will cause confusion or be misinterpreted.

Inadequate Tracking Mechanism for Yellow Policy Announcements

NRC does not have an adequate mechanism to track yellow policy
announcements. The agency maintains a comprehensive list of all yellow
policy announcements since the inception of the yellow policy
announcement process. ADM explained the purpose of the list was to
maintain an “Index” of all yellow policy announcements as a historical
reference for staff who may wish to know how a particular policy or
procedure developed over time. However, tracking yellow policy
announcements in this way makes it difficult to determine current policy.
Yellow policy announcements are intended as temporary measures until
offices revise their MDs and should be superseded after they are
incorporated into MDs. OIG interviewed MD authors and learned that they
routinely incorporate yellow policy announcements into MDs, often at the
insistence of ADM staff. However, it is rare to find yellow policy
announcements marked "Superseded" because staff are not aware of the
required formal notification requirements. As a result, most yellow policy
announcements are included on NRC’s Internal Web page indefinitely.

ADM stated that marking yellow policy announcements as superseded is a
“rare” occurrence and that the issued MD does not automatically
supersede the announcements. OIG analysis of NRC’s MDs with several
linked yellow policy
announcements or
revisions to policy (see
Table 1) found that ADM
had not marked any of the
announcements
“Superseded.”
Conversely, MD authors
indicated they had
incorporated yellow policy
announcements
associated with their
revised MDs. As an

                             15
                             Audit of NRC’s Process for Revising Management Directives

example, one MD author acknowledged an awareness of the potential
confusion with multiple yellow policy announcements listed for an
unrevised MD. The MD author had taken the extra precaution of including
language in one of the yellow policy announcements to supersede the
previous one. In spite of this extra effort, the author did not provide the
required “formal” notice to ADM. Therefore, ADM took no action and both
yellow policy announcements remained posted on the Web page.

The agency maintains yellow policy announcements related to specific
MDs in the “Related Policy Documents” section of the MD summary page
posted on the agency’s Internal Web site, which reflects similar
information found in the comprehensive list. For staff to determine current
policy, they must compare each yellow policy announcement from both
lists to determine the most recent version of the policy. This results in an
unnecessary, time-consuming process.

Inadequate Controls for Using Yellow Policy Announcements To Avoid
Revising MDs

The agency has not developed controls to ensure that NRC staff do not
routinely use yellow policy announcements as a means to avoid the MD
revision process. As an example, Table 1 on page 15 illustrates that NRC
has provided general links in two yellow policy announcements to MD 3.11
and has not revised the MD since 1997. The agency also provided
general links in five yellow policy announcements to MD 14.1 and has not
revised that MD since 2005. Additionally, MD 3.16 does not require an
expiration date for yellow policy announcements so there is no incentive to
incorporate them into MDs in a timely fashion.

NRC staff and management agreed that it is much easier to develop
yellow policy announcements than to revise an MD. In addition, ADM staff
acknowledged the popularity of using yellow policy announcements has
much to do with the longer process to revise NRC’s management
directives.




                              16
                              Audit of NRC’s Process for Revising Management Directives



Staff May Waste Resources and Not Know What Is Current Policy

If NRC does not track yellow policy announcements and adequately link
their respective MDs to associated yellow policy announcements, staff
may waste valuable resources and effort searching files to determine
current policies. Moreover, staff may become confused about what
guidance to follow in a particular situation, which could result in conducting
agency business based on incomplete or outdated policies.

Recommendations:

OIG recommends that the Executive Director for Operations

5.     Develop and implement an effective process to link MDs to yellow
       policy announcements at the time offices issue the yellow policy
       announcements.

6.     Develop and implement an adequate mechanism to track yellow
       policy announcements.
7.     Require yellow policy announcement owners to detail in the yellow
       policy announcement the MDs affected and the specific sections
       affected within these MDs.
8.     Revise the list of “Related Policy Documents” for each MD to
       include only yellow policy announcements issued after the current
       MD version date.
9.     Revise MD 3.16 to require an expiration date for yellow policy
       announcements.




                              17
                                       Audit of NRC’s Process for Revising Management Directives



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations

          1.    Revise MD 1.1 to

                a.     Elevate authority required for approving extensions.
                       Extensions can only be granted by the Chairman, the
                       Executive Director for Operations, the Chief Financial
                       Officer, or their designees (no lower than Deputy Executive
                       Directors for Operations, Assistant for Operations, or Deputy
                       Chief Financial Officer), as appropriate.

                b.     Include guidelines for resetting MD initial due dates. Require
                       Executive Director for Operations, or designee, approval to
                       reset initial due dates. Clearly state the parameters for
                       resetting due dates.

                c.     Clearly state the parameters and guidelines for granting
                       extensions, and provide that even if an extension is granted,
                       the authoring office will receive a “red” on the corporate
                       measure scorecard unless they also meet the new MD 1.1
                       guidelines (recommendation 1.b) for having the initial due
                       date reset.

          2.    Require a suspense due date for final concurrence/approval by the
                Executive Director for Operations and Chairman when submitting
                MD concurrence packages to those offices, so that the MD can be
                tracked in Office of the Executive Director for Operations’ tracking
                system.

          3.    Require MD author participation in ADM’s MD revision “kickoff”
                meetings.

          4.    Develop and implement a performance measure that effectively
                evaluates MD revision timeliness for MDs that begins with the
                kickoff meeting and ends with the issuance date of the MD. In
                addition, provide the reported results quarterly to the Office of the
                Executive Director for Operations and office directors.


                                       18
                           Audit of NRC’s Process for Revising Management Directives



5.   Develop and implement an effective process to link MDs to yellow
     policy announcements at the time offices issue the yellow policy
     announcements.

6.   Develop and implement an adequate mechanism to track yellow
     policy announcements.

7.   Require yellow policy announcement owners to detail in the yellow
     policy announcement the MDs affected and the specific sections
     affected within these MDs.
8.   Revise the list of “Related Policy Documents” for each MD to
     include only yellow policy announcements issued after the current
     MD version date.
9.   Revise MD 3.16 to require an expiration date for yellow policy
     announcements.




                           19
                                    Audit of NRC’s Process for Revising Management Directives



V.   AGENCY COMMENTS

        An exit conference was held with the agency on August 25, 2014. Prior to
        this meeting, after reviewing a discussion draft, agency management
        provided comments that have been incorporated into this report, as
        appropriate. As a result, agency management stated their general
        agreement with the findings and recommendations in this report and opted
        not to provide formal comments for inclusion in this report.




                                    20
                                      Audit of NRC’s Process for Revising Management Directives
                                                                                 APPENDIX A


OBJECTIVES, SCOPE, AND METHODOLOGY

    OBJECTIVES

        The audit objectives were to evaluate the adequacy of NRC’s compliance
        with MD 1.1, particularly in the areas of keeping management directives
        accurate and up-to-date, and whether opportunities exist to improve the
        process.

    SCOPE

        This audit focused on reviewing internal controls over the NRC
        Management Directives System, which is the official vehicle used by the
        agency to communicate agency policy, objectives, responsibilities,
        authorities, requirements, and guidance to NRC employees. OIG
        analyzed information and developed a universe based on a snapshot
        picture of the agency’s electronic management directives catalog as of
        November 5, 2013. OIG requested information from the agency on all
        MDs issued between January 1, 2012, and November 5, 2013. OIG
        auditors performed various tests of compliance with the agency’s 5-Year
        Plan to keep management directives accurate and up-to-date. As part of
        this audit, OIG reviewed the extent and use of extensions and NRC yellow
        announcements, but only those that convey new or revised policies.

        We conducted this performance audit at NRC headquarters in Rockville,
        Maryland, from November 2013 through May 2014. Internal controls
        related to the audit objectives were reviewed and analyzed. Throughout
        the audit, auditors were aware of the possibility of fraud, waste, or abuse
        in the program under review.

    METHODOLOGY

        To accomplish the audit objectives, OIG reviewed relevant laws,
        regulations, and guidance, including 41 Code of Federal Regulations
        (CFR) 102-193, Creation, Maintenance, and Use of Records; 10 CFR 1.3,
        Sources of Additional Information; and Public Law 90-620, Public Printing
        and Documents. We also reviewed Office of Management and Budget


                                      21
                             Audit of NRC’s Process for Revising Management Directives



Circular A-123, Management’s Responsibility for Internal Control; the
Government Accountability Office Standards for Internal Control in the
Federal Government; Management Directives; Article 54.7 in the
Collective Bargaining Agreement between NRC and the National Treasury
Employees Union; and a July 2008 OIG report titled Audit of NRC's
Controls Over the Process for Eliminating Management Directives, for
relevance to this audit.

OIG also reviewed agency guidance and documents, including the Final
Report of the Management Directives Working Group Program Review
Findings and Recommendations, July 2006. We also reviewed the
following ADM documents and system: (1) master schedule for updating
all agency management directives over the 5-year period FY 2009-2013,
(2) Management Directives Work Flow Core Review Process for All
New/Revised Management Directives, and (3) electronic file system for
capturing NRC management directive documentation. We also reviewed
required agency forms to issue, publish, eliminate, or request an extension
for management directives. OIG reviewed NRC’s policy announcements
on the Internal Web site and the electronic catalog of management
directives including the following for specific review purposes:

Management
Directive  Title
1.1        NRC Management Directives System
3.16       NRC Announcement Program
Volume 9   NRC Organization and Functions

OIG interviewed NRC staff at headquarters to obtain insights on the
agency’s process for revising management directives. OIG interviewed
staff from all four NRC regions to determine the usefulness of
management directives and to determine the amount of input received by
regions in the process. Finally, OIG interviewed staff from four Federal
agencies to review best practices.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a

                             22
                            Audit of NRC’s Process for Revising Management Directives



reasonable basis for our findings and conclusions based on our audit
objectives.

This audit work was conducted by Eric Rivera, Team Leader; Terri
Cooper, Audit Manager; Gail Butler, Senior Auditor; and Michael
Steinberg, Senior Auditor.




                            23
                                                 Audit of NRC’s Process for Revising Management Directives
                                                                                              APPENDIX B
GENERAL CATEGORIES FOR HIERARCHY OF NRC POLICY AND GUIDANCE




                                                                    Source: NRC Intranet




                                        24
                                                        Audit of NRC’s Process for Revising Management Directives

      CATALOG OF MANAGEMENT DIRECTIVES                                                             APPENDIX C

   AS OF NOVEMBER 5, 2013

                                                                                                             Years
                                                                                    MD                       Since
                     MD                                                             Effective              Current
                Number MD Title                                                     Date          Office Version
NOTE: MDs dated more than 5 years past their last revision date as of November 5, 2013, are designated by cells
highlighted in pink.
 1.                1.1 NRC Management Directives System                            03/18/2011      ADM          2
2.              2.3   Telecommunications                                               10/13/2011         OIS       2
3.              2.6   Information Technology Infrastructure                            03/07/2005         OIS       8
4.              2.7   Personal Use of Information Technology                           07/28/2006         OIS       7
5.              2.8   Project Management Methods                                       06/19/2007         OIS       6
6.              3.1   Freedom of Information Act                                       06/08/2011         OIS       2
7.              3.2   Privacy Act                                                      06/27/2007         OIS       6
8.              3.4   Release of Information to the Public                             02/06/2009         OIS       4
9.              3.5   Attendance at NRC Staff-Sponsored Meetings                       12/23/2011        OEDO       1
10.             3.7   NUREG-Series Publications                                        08/17/2004        ADM        9
                      NRC Staff and Contractor Speeches, Presentations,
                      Papers, and Journal Articles on Regulatory and Technical                           ADM
11.             3.9   Subjects                                                         11/01/2011                    2
12.            3.11 Conferences and Conference Proceedings                             11/04/1997        ADM        16
                      Handling and Disposition of Foreign Documents and
13.            3.12   Translations                                                     07/12/2001        ADM        12
14.            3.13   Reproduction and Distribution                                    08/09/2011        ADM         2
15.            3.14   U.S. Nuclear Regulatory Commission Public Web Site               08/06/2008         OIS        5
16.            3.15   Multimedia Services                                              11/25/2011        ADM         1
17.            3.16   NRC Announcement Program                                         10/02/2013        ADM         0
18.            3.17   NRC Information Quality Programs                                 04/09/2009         OIS        4
19.            3.23   Mail Management                                                  10/03/2002        ADM        11
20.            3.25   Graphic Design and Production Services                           06/03/2010        ADM         3
21.            3.51   Library Services                                                 02/25/2013         OIS        0
22.            3.52   Availability and Retention of Codes and Standards                10/19/2012         OIS        1
23.            3.53   NRC Records and Document Management Program                      03/15/2007         OIS        6
24.            3.54   NRC Collections of Information and Report Management             05/22/2006         OIS        7
25.            3.55   Forms Management Program                                         03/30/2011         OIS        2
26.            3.57   Correspondence Management                                        11/08/2011        OEDO        1
27.             4.1   Accounting Policy and Practices                                  09/09/2005        OCFO        8
28.             4.2   Administrative Control of Funds                                  04/11/2008        OCFO        5
29.             4.3   Financial Management Systems                                     07/07/2005        OCFO        8

                                                                                       Source: OIG Generated
                                                        25
                                                      Audit of NRC’s Process for Revising Management Directives

                                                                                                             Years
                                                                                    MD                       Since
                     MD                                                             Effective              Current
                Number MD Title                                                     Date          Office Version
NOTE: MDs dated more than 5 years past their last revision date as of November 5, 2013, are designated by cells
highlighted in pink.
 30.               4.4 Internal Control                                            10/02/2012      OCFO         1
31.             4.5 Contingency Plan for Periods of Lapsed Appropriations             01/03/2012       OCFO       1
32.             4.6 License Fee Management Program                                    07/17/2010       OCFO       3

                      Policies and Practices Governing NRC Long-Range
33.             4.7 Planning, Budget Formulation, and Resource Management             10/01/1989       OCFO       24
34.             5.1 Intergovernmental Consultation                                    04/05/1993       FSME       20

                      Cooperation With States at Commercial Nuclear Power
35.             5.2   Plants and Other Nuclear Production or Utilization Facilities   10/29/2010       FSME       3
36.             5.3   Agreement State Participation in Working Groups                 08/22/2007       FSME       6
37.             5.4   Official Representation Expenses                                09/25/2007        OIP       6
38.             5.5   Public Affairs Program                                          04/26/2013        OPA       0
                      Integrated Materials Performance Evaluation Program
39.             5.6   (IMPEP)                                                         02/26/2004       FSME        9
40.             5.7 Technical Assistance to Agreement States                          03/28/2013       FSME        0
41.             5.8 Proposed Section 274b Agreements with States                      06/25/2013       FSME        0
42.             5.9 Adequacy and Compatibility of Agreement State Programs            02/27/1998       FSME       15

                      Formal Qualifications for Integrated Materials Performance
43.            5.10 Evaluation Program (IMPEP) Team Members                           01/05/1999       FSME       14
                      International Nuclear and Radiological Event Scale (INES)
44.            5.12   Participation                                                   01/30/2012       NSIR       1
45.            5.13   NRC International Activities Practices and Procedures           06/06/2008        OIP       5
46.             6.1   Resolution and Follow-up of Audit Recommendations               02/20/2006       OEDO       7
47.             6.2   Continuity of Operations Program                                02/20/2013       NSIR       0
48.             6.3   The Rulemaking Process                                          07/22/2013       ADM        0
49.             6.4   Generic Issues Program                                          11/17/2009        RES       3
                      NRC Participation in the Development and Use of
50.             6.5   Consensus Standards                                             12/20/2011       RES        1
51.             6.6   Regulatory Guides                                               04/12/2011       RES        2
52.             6.8   Lessons Learned Program                                         08/01/2006       RES        7
53.             7.1   Tort Claims Against the United States                           05/21/2010       OGC        3
54.             7.2   Claims for Personal Property Loss or Damage                     06/02/2010       OGC        3
55.             7.3   Participation in Professional Organizations                     09/29/2009       OGC        4
                      Reporting Suspected Wrongdoing and Processing OIG
56.             7.4   Referrals                                                       04/28/2006       OIG        7
57.             7.5 Ethics Counseling and Training                                    07/01/2010       OGC        3
58.             7.6 Public and Confidential Financial Disclosure Reports              01/18/2010       OGC        3


                                                      26
                                                      Audit of NRC’s Process for Revising Management Directives

                                                                                                             Years
                                                                                    MD                       Since
                     MD                                                             Effective              Current
                Number MD Title                                                     Date          Office Version
NOTE: MDs dated more than 5 years past their last revision date as of November 5, 2013, are designated by cells
highlighted in pink.
59.             7.7   Secutiry Ownership                                             09/29/2009        OGC         4
60.             7.8   Outside Employment                                             12/20/2010        OGC         2
61.             7.9   Ethics Approvals and Waivers                                   09/29/2009        OGC         4
62.            7.10   Political Activity                                             09/27/2010        OGC         3
63.            7.12   Enforcement of Post-Employment Restrictions                    09/01/2009        OGC         4
64.             8.1   Abnormal Occurrence Reporting Procedure                        09/09/2011        RES         2
65.             8.2   NRC Incident Response Program                                  06/16/2006        NSIR        7
66.             8.3   NRC Incident Investigation Program                             03/27/2001        NSIR       12
                      Management of Facility-specific Backfitting and Information
67.             8.4   Collection                                                     10/09/2013         RES        0
68.             8.5   Operational Safety Data Review                                 07/08/2013        NMSS        0
69.             8.7   Reactor Operating Experience Program                           09/27/2012        NRR         1
70.             8.8   Management of Allegations                                      11/15/2010         OE         2
71.             8.9   Accident Investigation                                         08/26/2005        NSIR        8
72.            8.10   NRC Medical Event Assessment Program                           07/06/1994        FSME       19
73.            8.11   Review Process for 10 CFR 2.206 Petitions                      10/25/2000        NRR        13
                      Decommissioning Financial Assurance Instrument Security
74.            8.12   Program                                                        04/03/1998        FSME       15
75.            8.13   Reactor Oversight Process                                      10/03/2010        NRR         3
76.            8.14   Agency Action Review Meeting                                   02/01/2013        NRR         0
77.            8.17   Licensee Complaints Against NRC Employees                      05/05/2005        NRR         8
78.            8.18   NRC Generic Communications Program                             03/05/2009        NRR         4
79.             9.1   Organizational Management                                      06/12/1987       OCHCO       26
                      Organization and Functions, Office of the Inspector
80.             9.2   General                                                        11/06/2013         OIG       0
                      Organization and Functions, Advisory Committee on
81.             9.3   Reactor Safeguards                                             10/06/1985        ACRS       28
                      Organization and Functions, Atomic Safety and Licensing
82.             9.5   Board Panel                                                    05/10/1984       ASLBP       29
                      Organization and Functions, Office of Commission
83.             9.6   Appellate Adjudication                                         07/30/1991        OCAA       22
84.             9.7   Organization and Functions, Office of the General Counsel      10/04/2010        OGC         3
85.             9.8   Organization and Functions, Office of Investigations           04/05/2010         OI         3
86.            9.10   Organization and Functions, Office of the Secretary            04/20/2009        SECY        4
87.            9.11   Organization and Functions, Office of Public Affairs           07/09/1993        OPA        20
88.            9.13   Organization and Functions, Office of Congressional Affairs    07/08/1993        OCA        20
                      Organization and Functions, Office of International
89.            9.14   Programs                                                       07/30/2001         OIP       12



                                                      27
                                                      Audit of NRC’s Process for Revising Management Directives

                                                                                                             Years
                                                                                    MD                       Since
                     MD                                                             Effective              Current
                Number MD Title                                                     Date          Office Version
NOTE: MDs dated more than 5 years past their last revision date as of November 5, 2013, are designated by cells
highlighted in pink.
                        Organization and Functions, Office of State and Tribal
 90.              9.15 Programs                                                    08/24/2004      FSME          9
                        Organization and Functions, Office of the Executive
 91.              9.17 Director for Operations                                     09/12/1991     OEDO          22
92.            9.19 Organization and Functions, Office of Enforcement                05/09/1989         OE        24
                      Organization and Functions, Office of the Chief Financial
93.            9.20 Officer                                                          03/07/2002        OCFO       11
94.            9.21 Organization and Functions, Office of Administration             05/26/1993        ADM        20
                      Organization and Functions, Office of Administration and
95.            9.22 Resources Management                                             04/15/1987         OIS       26
                      Organization and Functions, Office of Small and
96.            9.24 Disadvantaged Business Utilization/Civil Rights                  11/05/1990        SBCR       23
97.            9.25 Organization and Functions, Office of Human Resources            07/13/2004       OCHCO        9
                      Organization and Functions, Office of Nuclear Material
98.            9.26 Safety and Safeguards                                            10/27/1989        NMSS       24
                      Organization and Functions, Office of Nuclear Reactor
99.            9.27   Regulation                                                     07/13/1989         NRR       24
                      Organization and Functions, Office of Nuclear Regulatory
100.           9.28   Research                                                       05/26/1989         RES       24
101.           9.29 Organization and Functions, Regional Offices                     04/15/2010        OEDO        3
                      Appointments, General Employment Issues, Details, and
102.           10.1   Position Changes                                               10/10/1995      OCHCO        18
103.           10.2   Staffing Assistance for International Organizations            04/16/1999      OCHCO        14
104.           10.6   Use of Consultants and Experts                                 05/10/2002      OCHCO        11
105.           10.8   Clearances Before Separation or Reassignment                   09/10/2002      OCHCO        11
106.          10.10   Recruitment                                                    07/13/1992      OCHCO        21
107.          10.11   Visiting Fellows Program                                       08/12/2011      OCHCO         2
108.          10.12   Use of Advisory Committee Members                              02/06/2013      OCHCO         0
109.          10.13   Special Employment Programs                                    04/14/2000      OCHCO        13
110.          10.14   Employee Trial Period                                          03/16/1998      OCHCO        15
111.          10.15   Merit Staffing Program                                         02/21/1996      OCHCO        17
112.          10.36   Position Evaluation and Pay Administration                     06/05/1987      OCHCO        26
113.          10.37   Position Evaluation and Benchmarks                             09/11/2007      OCHCO         6
114.          10.38   Position Management                                            07/19/2010      OCHCO         3
115.          10.41   Pay Administration                                             02/28/2013      OCHCO         0
116.          10.42   Work Schedules and Premium Pay                                 11/23/2012      OCHCO         0
117.          10.43   Time and Labor Reporting                                       09/29/2009      OCHCO         4
118.          10.45   Advances in Pay                                                03/25/2003      OCHCO        10



                                                      28
                                                     Audit of NRC’s Process for Revising Management Directives

                                                                                                             Years
                                                                                    MD                       Since
                     MD                                                             Effective              Current
                Number MD Title                                                     Date          Office Version
NOTE: MDs dated more than 5 years past their last revision date as of November 5, 2013, are designated by cells
highlighted in pink.
119.          10.49   Student Loan Repayment Program                                07/29/2004      OCHCO         9
120.          10.50   Pension Offset Waiver                                         07/08/2013      OCHCO         0
121.          10.51   Recruitment, Relocation and Retention Incentives              11/01/2011      OCHCO         2
122.          10.62   Leave Administration                                          11/19/2001      OCHCO        11
123.          10.67   General Grade Performance Management System                   08/17/2012      OCHCO         1
124.          10.72   Awards and Recognition                                        09/03/2013      OCHCO         0
125.          10.77   Employee Training and Development                             02/08/2005      OCHCO         8
126.          10.78   NRC Intern Program                                            11/15/1991      OCHCO        21
127.          10.99   Discipline, Adverse Actions, and Separations                  06/05/1987      OCHCO        26
128.         10.100   Appeals from Adverse Actions                                  06/05/1987      OCHCO        26
129.         10.101   Employee Grievances                                           06/05/1987      OCHCO        26
                      Labor-Management Relations Program for Federal
130.         10.102   Employees                                                     06/15/2010       OCHCO        3
131.         10.103 Reduction in Force for non-SES Employees                        11/04/2002       OCHCO       11
132.         10.122 Employee Assistance and Wellness Services Program               12/13/2002       OCHCO       10
                      Safety and Health Program Under the Occupational Safety
133.         10.130 and Health Act                                                  03/04/2002        ADM        11
134.         10.131 Protection of NRC Employees Against Ionizing Radiation          01/17/2003        FSME       10
                      Senior Executive Service (SES) Employment and Staffing
135.         10.135 Programs                                                        02/20/1996       OCHCO       17
                      Senior Executive Service Performance Management
136.         10.137   System                                                        02/15/2006       OCHCO        7
137.         10.138   Reduction in Force in the Senior Executive Service            06/07/2005       OCHCO        8
138.         10.145   Senior Level System                                           06/12/1996       OCHCO       17
139.         10.146   Distinguished Engineers and Scientists Program                02/04/1999       OCHCO       14
140.         10.148   Senior Level Performance Appraisal System                     10/04/1993       OCHCO       20
141.         10.153   Administrative Judges - Compensation and Staffing             04/26/2013       OCHCO        0
                      NRC Non-Concurrence Process - DRAFT - Interim
142.         10.158   Guidance                                                      11/29/2006         OE         6
143.         10.159 The NRC Differing Professional Opinions Program                 05/16/2004         OE         9
144.         10.160 Open Door Policy                                                08/28/1997         OE        16
                      Civil Rights Program and Affirmative Employment and
145.         10.161   Diversity Management Program                                  04/19/2011        SBCR        2
146.         10.162   Disability Programs and Reasonable Accommodation              07/29/2005       OCHCO        8
147.           11.1   NRC Acquisition of Supplies and Services                      03/29/2006        ADM         7
148.           11.4   NRC Small and Disadvantaged Business Program                  07/07/1994        SBCR       19
149.           11.6   Financial Assistance Program                                  09/16/2011        ADM         2



                                                     29
                                                       Audit of NRC’s Process for Revising Management Directives

                                                                                                             Years
                                                                                    MD                       Since
                     MD                                                             Effective              Current
                Number MD Title                                                     Date          Office Version
NOTE: MDs dated more than 5 years past their last revision date as of November 5, 2013, are designated by cells
highlighted in pink.
                      NRC Procedures for Placement and Monitoring of Work
150.           11.7 With the U.S. Department of Energy (DOE)                          01/19/2012        ADM        1
                      NRC Procedures for Placement and Monitoring of Work
                      With Federal Agencies Other Than the U.S. Department of
151.           11.8   Energy Laboratory Work                                          09/05/2012        ADM         1
152.           12.0   Glossary                                                        07/15/1994        ADM        19
153.           12.1   NRC Facility Security Program                                   09/14/2011        ADM         2
154.           12.2   NRC Classified Information Security Program                     08/02/2007        NSIR        6
155.           12.3   NRC Personnel Security Program                                  10/08/2013        ADM         0
156.           12.4   NRC Telecommunications Systems Security Program                 12/08/1999        NSIR       13
157.           12.5   Cyber Security Program                                          08/15/2013        CSO         0
158.           12.6   NRC Sensitive Unclassified Information Security Program         12/20/1999         OIS       13
159.           12.7   NRC Safeguards Information Security Program                     06/25/2008        NSIR        5
160.           13.1   Property Management                                             02/16/2011        ADM         2
161.           13.2   Facility Management                                             09/25/2012        ADM         1
162.           13.4   Transportation Management                                       02/19/2013        ADM         0
163.           14.1   Official Temporary Duty Travel                                  06/07/2005        OCFO        8
164.           14.2   Relocation Allowances                                           08/15/2006        OCFO        7




                                                       30
